                  Report on Audit of Facilities Utilization
                            of Leased Space

                                 August 2004

                     Reference Number: 2004-1C-162




  This report has cleared the Treasury Inspector General for Tax Administration
disclosure review process and information determined to be restricted from public
                 release has been redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                            August 31, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               Report on Audit of Facilities Utilization of Leased Space
                              (Audit #20041C0244)


       The Defense Contract Audit Agency (DCAA) evaluated the contractor’s Federal Sector
       management and utilization of leased facilities within Falls Church and Sterling, Virginia.
       The DCAA performed the audit to evaluate the effectiveness of the contractor’s policies
       and practices in managing their facilities in an efficient and economical manner. The
       audit was conducted from March 2002 through August 2002 and covered contractor
       operations for the fiscal year ended March 31, 2003.
       The DCAA opined that the contractor’s Federal Sector has the opportunity to achieve an
       annual savings of approximately $2.1 million allocable to Government contracts. The
       DCAA audit disclosed that there is an opportunity for the contractor to either eliminate or
       consolidate leased space at six of its facilities. According to the DCAA, the contractor
       should consider either terminating or restructuring the leases, if they can, or subleasing
       space not needed for the remainder of their leases.
       The DCAA recommended that the contractor should define the size of office space per
       grade and incorporate this guideline into its formal policies and procedures as part of
       their books and records. Also, the contractor should develop and implement a
       corrective action plan to reduce the amount of rentable square feet at each of the
       locations.
       The DCAA report was dated December 2002; however, we did not receive a copy of the
       report until August 2004. Neither the Internal Revenue Service (IRS) nor the Treasury
       Inspector General for Tax Administration (TIGTA) are shown on the DCAA report
                                            2




distribution list. We are transmitting the report to you to assist in the management of the
contract and to enable the IRS to track any financial accomplishments derived from
negotiations with the contractor based on results from the DCAA report.
The information in this report should not be used for purposes other than those intended
without prior consultation with the TIGTA regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
